APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(December 4, 2019) . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Middle District of Florida
Jacksonville Division
(July 3, 2019). . . . . . . . . . . . . . . . . App. 2
Appendix C Judgment in the United States
District Court Middle District of
Florida Jacksonville Division
(July 5, 2019). . . . . . . . . . . . . . . . App. 40
Appendix B Memorandum in Support of Motion
Under 28 U.S.C. §2255 in the United
States District Court Middle District
of Florida Jacksonville Division
(June 7, 2016) . . . . . . . . . . . . . . . App. 42

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13451-H
[Filed December 4, 2019]
________________________________
BRYAN ADRAIN COPELAND,
)
Petitioner-Appellant, )
)
versus
)
)
UNITED STATES OF AMERICA, )
Respondent-Appellee. )
________________________________ )
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Appellant moves for a certificate of appealability in
order to appeal the denial of his motion to vacate, set
aside, or correct sentence, filed pursuant to 28 U.S.C.
§ 2255. His motion is DENIED because he has failed to
make a substantial showing of the denial of a
constitutional right. See 28 U.S.C. § 2253(c)(2).

/s/ Stanley Marcus
UNITED STATES CIRCUIT JUDGE

App. 2

APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
Case No.: 3:16-cv-699-J-34JBT
3:11-cr-281-J-34JBT
[Filed July 3, 2019]
________________________________
BRYAN ADRAIN COPELAND,
)
)
Petitioner,
)
)
vs.
)
)
UNITED STATES OF AMERICA, )
)
Respondent.
)
________________________________ )
ORDER
This case is before the Court on Petitioner Bryan
Adrain Copeland’s pro se Motion Under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence (Civ.
Doc. 1; Motion to Vacate), Memorandum in Support
(Civ. Doc. 2; Memorandum), and Affidavit (Civ. Doc. 21; Affidavit).1 Copeland alleges that he pled guilty
1

Citations to the record in the underlying criminal case, United
States vs. Bryan Adrain Copeland, No. 3:11-cr-281-J-34JBT, are
denoted as “Crim. Doc. __.” Citations to the record in the civil

App. 3
because counsel misadvised him about his potential
sentence. Copeland also raises three claims that
counsel gave ineffective assistance at his sentencing.
The United States filed an initial response (Civ. Doc. 7;
Response) and Copeland filed a counseled reply (Civ.
Doc. 12; Reply). After reviewing the initial briefs, the
Court ordered the United States to file a supplemental
response, which the Court has received (Civ. Doc. 16;
Supplemental Response) along with Copeland’s
counseled supplemental reply (Civ. Doc. 17;
Supplemental Reply). Thus, the matter is ripe for a
decision.
Pursuant to 28 U.S.C. § 2255 and Rule 8(a) of the
Rules Governing Section 2255 Proceedings2, the Court
has considered the need for an evidentiary hearing and
determines that a hearing is not necessary to resolve
the merits of this action. See Rosin v. United States,
786 F.3d 873, 877 (11th Cir. 2015) (an evidentiary
hearing on a § 2255 motion is not required when the
petitioner asserts allegations that are affirmatively
contradicted by the record or patently frivolous, or if in
assuming the facts that he alleges are true, he still
would not be entitled to any relief); Patel v. United
States, 252 F. App’x 970, 975 (11th Cir. 2007).3 For the
§ 2255 case, No. 3:16-cv-699-J-34JBT, are denoted as “Civ. Doc.
__.” Citations to page numbers refer to the number designated by
CM/ECF.
2

Rule 8(a) of the Rules Governing Section 2255 Proceedings
expressly requires the Court to review the record, including any
transcripts and submitted materials, to determine whether an
evidentiary hearing is warranted before resolving a § 2255 motion.

3

Although the Court does not rely on unpublished opinions as
precedent, they may be cited throughout this Order as persuasive

App. 4
reasons set forth below, Copeland’s Motion to Vacate is
due to be denied.
I. Background
On November 10, 2011, a grand jury sitting in the
Middle District of Florida returned a thirty-eight-count
indictment, charging Copeland with eleven counts of
mail fraud in violation of 18 U.S.C. § 1341 (Counts One
through Eleven), sixteen counts of wire fraud in
violation of 18 U.S.C. § 1343 (Counts Twelve through
Twenty-Seven), nine counts of aggravated identity theft
in violation of 18 U.S.C. § 1028A (Counts Twenty-Eight
through Thirty-Six), and two counts of making false
claims against the United States in violation of 18
U.S.C. § 287 (Counts Thirty-Seven and Thirty-Eight).
(Crim. Doc. 1; Indictment). On February 15, 2012,
Copeland pled guilty to Counts Twenty-Seven, ThirtySix, and Thirty-Seven pursuant to a written Plea
Agreement. (Crim. Doc. 42; Plea Agreement); (Crim.
Doc. 81; Plea Tr.). In doing so, Copeland admitted
committing wire fraud, committing aggravated identity
theft, and making false claims against the United
States. Specifically, Copeland admitted that between
May 2006 and January 2010, he engaged in a scheme
to defraud the Internal Revenue Service (IRS) by using
stolen identities to submit fraudulent tax returns via
mail and electronic filing. Plea Agreement at 20-22, 2326; Plea Tr. at 28-33.

authority on a particular point. Rule 32.1 of the Federal Rules of
Appellate Procedure expressly permits the Court to cite to
unpublished opinions that have been issued on or after January 1,
2007. Fed. R. App. P. 32.1(a).

App. 5
On June 18, 2012, the Court sentenced Copeland to
a total term of imprisonment of 264 months, consisting
of 240 months as to Count Twenty-Seven, a concurrent
term of 60 months in prison as to Count Thirty-Seven,
and a consecutive term of 24 months in prison as to
Count Thirty-Six, which by statute had to run
consecutively with the sentence for the other two
counts.4 (See Crim. Doc. 84; Sentencing Tr.); (Crim.
Doc. 65; Judgment). Copeland appealed the sentence,
“argu[ing], inter alia, that the government breached
the plea agreement by failing to recommend a threelevel guideline reduction under U.S.S.G. § 3E1.1 for
acceptance of responsibility.” United States v.
Copeland, 520 F. App’x 822, 823 (11th Cir. 2013). The
Eleventh Circuit agreed with Copeland that the
government breached the Plea Agreement to the extent
it failed to recommend a two-level reduction under
§ 3E1.1(a), id. at 826-27, and remanded the case for
resentencing before a different judge, id. at 828.
Following remand, the Probation Office prepared a
revised Presentence Investigation Report (Revised
PSR) in advance of the resentencing hearing. For
purposes of calculating the offense level, Counts
Twenty-Seven and Thirty-Seven were grouped together
“pursuant to U.S.S.G. § 3D1.2(d) because the offense
level [was] determined largely on the basis of the total
amount of loss and the offense guideline is written to
cover such behavior.” Revised PSR at ¶ 37. Count
Thirty-Six, which carried a two-year mandatory
consecutive sentence, was grouped separately. See id.
at ¶ 38. According to the Revised PSR, the total offense
4

See 18 U.S.C. § 1028A(b)(2).

App. 6
level for Counts Twenty-Seven and Thirty-Seven was
38 and Copeland’s Criminal History Category was I.
Revised PSR at ¶¶ 40-51, 57. The total offense level
consisted of a base offense level of 6 under U.S.S.G.
§ 2B1.1(a)(2); an 18-level enhancement under
§ 2B1.1(b)(1)(J) because the loss was more than $2.5
million but not more than $7 million; a 6-level
enhancement under § 2B1.1(b)(2)(C) because the
offense involved more than 250 victims; a 2-level
enhancement under § 2B1.1(b)(10)(C) because the
offense involved sophisticated means; a 2-level
enhancement under § 3A1.1(b)(1) because the offense
involved a vulnerable victim; a 4-level enhancement
under § 3B1.1(a) because Copeland was an organizer or
leader of criminal activity; a 2-level enhancement
under § 3C1.1 for obstruction of justice; and a 2-level
reduction under § 3E1.1(a) for acceptance of
responsibility. The Guidelines calculation yielded an
advisory sentencing range of 235-293 months in prison
as to Counts Twenty-Seven and Thirty- Seven, plus the
24-month consecutive term of imprisonment as to
Count Thirty-Six. (Crim. Doc. 144; Resentencing Tr.
Vol. II at 12). The Court varied well below the
Guidelines range, imposing a total term of
imprisonment of 204 months. Id. at 53. The prison
sentence consisted of 180 months as to Count TwentySeven, a concurrent term of 60 months as to Count
Thirty-Seven, and a consecutive term of 24 months as
to Count Thirty-Six. Id.; (see also Crim. Doc. 135;
Judgment on Resentencing). The Court also sentenced
Copeland to a total of 3 years of supervised release
following the term of imprisonment and ordered him to
pay approximately $3.5 million in restitution.
Judgment on Resentencing at 3, 5.

App. 7
Copeland again appealed his sentence, this time
arguing that the Court erred by applying a Guidelines
enhancement for obstruction-of-justice. United States
v. Copeland, 604 F. App’x 834, 835 (11th Cir. 2015).
The Eleventh Circuit rejected Copeland’s argument
and affirmed his conviction and sentence. Id. at 838.
Copeland did not seek certiorari review before the
Supreme Court. Thereafter, Copeland timely filed the
instant Motion to Vacate, raising four claims of
ineffective assistance of counsel.5
II. Discussion
Pursuant to Title 28, United States Code, Section
2255, a person in federal custody may move to vacate,
set aside, or correct his sentence. Section 2255 permits
such collateral challenges on four specific grounds:
(1) the imposed sentence was in violation of the
Constitution or laws of the United States; (2) the court
did not have jurisdiction to impose the sentence; (3) the
imposed sentence exceeded the maximum authorized
by law; or (4) the imposed sentence is otherwise subject
to collateral attack. 28 U.S.C §2255(a) (2008). Only
jurisdictional claims, constitutional claims, and claims
of error that are so fundamentally defective as to cause
a complete miscarriage of justice will warrant relief
through collateral attack. United States v. Addonizio,
442 U.S. 178, 184-86 (1979). A petitioner’s challenge to
his sentence based on a Sixth Amendment claim of
ineffective assistance of counsel is normally considered
in a collateral attack. United States v. Teague, 953
F.2d 1525, 1534 n. 11 (11th Cir. 1992).
5

As discussed below, however, Copeland appears to have
abandoned Ground Three.

App. 8
To establish ineffective assistance of counsel, a
§ 2255 petitioner must demonstrate both: (1) that his
counsel’s conduct amounted to constitutionally
deficient performance, and (2) that counsel’s deficient
performance sufficiently prejudiced his defense.
Strickland v. Washington, 466 U.S. 668, 687 (1984);
Weeks v. Jones, 26 F.3d 1030, 1036 (11th Cir. 1994). In
determining whether the petitioner has satisfied the
first requirement, i.e. that counsel performed
deficiently, the Court adheres to the standard of
reasonably effective assistance. Weeks, 26 F.3d at
1036. The petitioner must show that, in light of all the
circumstances, counsel’s performance fell outside the
“wide range of professionally competent assistance.” Id.
To satisfy the second requirement, that counsel’s
deficient performance was prejudicial, the petitioner
must show that there is a reasonable probability that,
but for counsel’s error, the result of the proceeding
would have been different. Id. at 1036-37 (citing
Strickland, 466 U.S. at 694). In determining whether a
petitioner has met the two prongs of deficient
performance and prejudice, the Court considers the
totality of the evidence. Strickland, 466 U.S. at 695.
However, because both prongs are necessary, “there is
no reason for a court… to approach the inquiry in the
same order or even to address both components of the
inquiry if the defendant makes an insufficient showing
on one.” Id. at 697; see also Wellington v. Moore, 314
F.3d 1256, 1261 n. 1 (11th Cir. 2002) (“We need not
discuss the performance deficiency component of
[petitioner’s] ineffective assistance claim because
failure to satisfy the prejudice component is
dispositive.”).

App. 9
Strickland’s two-part test applies to claims of
ineffective assistance arising out of the plea negotiation
process. Hill v. Lockhart, 474 U.S. 52, 57 (1985). Thus,
a prisoner alleging ineffective assistance of counsel
based on his attorney’s performance during the plea
process must show two things: (1) that his attorney’s
advice fell below an objective standard of
reasonableness, and (2) a reasonable probability that
the outcome of the plea process would have been
different with competent advice. Lafler v. Cooper, 132
S. Ct. 1376, 1384 (2012) (citation omitted).
A. Ground One
In his first ground, Copeland argues that he
“received ineffective assistance of counsel during plea
negotiations when counsel promised an unrealistically
low sentence in order to induce a guilty plea that
otherwise would not have been entered.” Motion to
Vacate at 4. Specifically, Copeland alleges that:
(1)

Counsel “advised him that the maximum
sentence he could receive under the plea
agreement was 84 months imprisonment”
and that he would likely receive a
sentence “in the range of 60 months
imprisonment.” Memorandum at 10; see
also Affidavit at ¶ 2. Counsel purportedly
failed to advise Copeland that he could be
sentenced to over 200 months in prison.

See Memorandum at 10.
(2)

Counsel failed to advise him how the loss
amount would be calculated under the
United States Sentencing Guidelines, and

App. 10
failed to advise him of the possibility that
he could be subject to Guidelines
enhancements “that were not addressed
in the plea agreement.”
Memorandum at 10-11; see also Affidavit at ¶ 3.
(3)

Counsel advised him “that a verbal
agreement had been reached [with the
government] concerning his sentence and
that the Guidelines would not be used,”
but instead that a “3rd party mitigator”
named Carlos Dawson “would be used to
determine the appropriate sentence.”

Memorandum at 11; see also Affidavit at ¶ 3. Copeland
alleges that counsel’s advice rendered his guilty plea
unknowing, involuntary, and unintelligent.
Memorandum at 8. He further contends that “[h]ad
Petitioner been correctly advised by counsel concerning
his potential penalty, he would never have entered the
plea agreement.” Id. at 12; Affidavit at ¶ 4.
The record refutes each of Copeland’s allegations.
Beginning with the Plea Agreement, the Court notes
that contrary to Copeland’s assertion that he believed
the maximum sentence was 84 months (7 years) in
prison, a section titled “Maximum Penalties”
specifically advised him that the cumulative maximum
penalty for Counts Twenty-Seven, Thirty-Six, and
Thirty-Seven was 27 years in prison, two years “of
which are mandatory consecutive to any sentence of
imprisonment imposed pursuant to Count TwentySeven.” Plea Agreement at 3. By signing the Plea
Agreement, Copeland acknowledged that he

App. 11
understood that regardless of any recommendations
made by the government, “the sentence w[ould] be
determined solely by the Court, with the assistance of
the United States Probation Office.” Id. at 15. Thus,
Copeland could not have believed that his sentence
would be determined by a “3rd-party mitigator” or
based on some alleged verbal agreement with the
government.
Moreover, contrary to Copeland’s assertion that he
was unaware any enhancements could be applied that
were not addressed in the Plea Agreement, the Plea
Agreement contained a section titled “Sentencing
Information”:
3. Sentencing Information
The United States reserves its right and
obligation to report to the Court and the United
States Probation Office all information
concerning the background, character, and
conduct of the defendant, to provide relevant
factual information, including the totality of the
defendant’s criminal activities, if any, not
limited to the counts to which defendant pleads,
to respond to comments made by the defendant
or defendant’s counsel, and to correct any
misstatements or inaccuracies. The United
States further reserves its right to make any
recommendations it deems appropriate
regarding the disposition of this case, subject to
any limitations set forth herein, if any.
Id. at 14. Thus, Copeland understood that the
government could bring any information to the

App. 12
attention of the Court that was relevant to his
background, personal and offense characteristics, and
conduct or criminal activities. Finally, Copeland
acknowledged that he was not relying on any “promise
of benefit of any kind” other than those contained in
the Plea Agreement itself, id. at 17, and that the
written Plea Agreement constituted the entirety of the
agreement, id. at 19. These provisions contradict
Copeland’s claim that he relied on counsel’s alleged
assurance that counsel and the government had
reached a verbal agreement about the sentence.
At the change-of-plea colloquy, Copeland stated
under oath that he had read and understood every
provision of the Plea Agreement, that he had signed
the agreement, and that he had initialed each page.
Plea Tr. at 21-22. Copeland’s attorney confirmed as
well that he had reviewed the Plea Agreement with
Copeland. Id. at 21. After advising Copeland of his
rights, the Court advised Copeland about the
applicability of the United States Sentencing
Guidelines, the unpredictability of his sentence, and
the Court’s authority to impose any sentence up to the
statutory maximum:
THE COURT:

Now, the federal sentencing
guidelines apply to your case,
Mr. Copeland. Have you had an
opportunity to discuss the
sentencing guidelines with your
lawyer?

DEFENDANT: Yes, sir.

App. 13
THE COURT:

I’m not going to go into great
detail about the guidelines
because you’ve alr eady
discussed them with your
lawyer, but I do want to make
sure that you understand
certain things about how the
sentencing process works.
The Court will not be able to
determine what your guideline
sentence is until after the
presentence report has been
prepared by the probation
department. After it has been
determined what guidelines
apply to your case, I have the
authority to impose a sentence
that is more severe or less
severe than the sentence called
for by the guidelines. I have the
authority, under certain
circumstances, to depart or
vary from the guidelines and
sentence you either to a lower
sentence or a higher sentence
than the one called for by the
guidelines.
I am required to consider the
guidelines, but I have the
authority to impose any
sentence up to and including
the maximum penalty

App. 14
permitted by law. This means
that the Court is not bound by
the guidelines in setting your
sentence, but rather, that the
guidelines are only advisory in
nature.
Understood?
DEFENDANT: Yes, sir.
Plea Tr. at 14. The Court further cautioned Copeland
not to rely on any sentencing estimate provided by his
lawyer:
THE COURT:

…. The sentence that is
imposed may be different than
any estimated sentence that
your lawyer or anybody else has
given you. In fact, it may be
more severe than you expect. If
that happens you will still be
bound by your plea and will not
have the right to withdraw it.
Do you understand that?

DEFENDANT: Yes, sir.
THE COURT:

Do you understand all the
things that I’ve just explained
to you about sentencing?

DEFENDANT: Yes, sir.
Id. at 15. After reviewing the maximum sentence for
each count, id. at 17-18, the Court reminded Copeland

App. 15
that “[t]he maximum penalties for Counts TwentySeven, Thirty-Six, and Thirty-Seven accumulate to not
more than 27 years imprisonment, two of which are
mandatory consecutive to any sentence of
imprisonment imposed pursuant to Count TwentySeven…,” id. at 19. Copeland affirmed that he
understood the maximum sentence and that the
“maximum penalties are the logical consequence of
[his] guilty plea.” Id. at 20.
After the Court reviewed the charges and the
factual basis in open Court with Copeland, and after
Copeland affirmed that the factual basis was true,
Copeland assured the Court that his guilty plea was
not induced by any promises or threats:
THE COURT:

Has anyone threatened you,
forced you, coerced you, or
intimidated you in any way
regarding your decision to plead
guilty?

DEFENDANT: No, sir.
THE COURT:

Has anyone made any promises
or assurances to you of any
kind in order to induce you to
plead guilty, other than the
terms contained in your plea
agreement?

DEFENDANT: No, sir.
Id. at 36. Notably, Copeland specifically assured the
Court that he did not know what his sentence would

App. 16
be, and that he was not relying on any promise of a
particular sentence:
THE COURT:

Are you relying on any
agreement, promise, or
understanding with anyone
concerning what sentence will
be imposed if you plead guilty
other than what’s contained in
the terms of your plea
agreement?

DEFENDANT: No, sir.
THE COURT:

And at this time do you know
what sentence you will receive?

DEFENDANT: Do I know what sentence –
THE COURT:

Yes, sir.

DEFENDANT: – I will receive?
No, sir.
THE COURT:

Has anyone promised you that
you will receive a light sentence
or be otherwise rewarded for
pleading guilty, other than the
terms contained in your plea
agreement?

DEFENDANT: No, sir.
THE COURT:

Mr. Stripling, as counsel for the
defendant, can you assure the
Court that as far as you know,
there have been no assurances,

App. 17
promises, or understandings
given to Mr. Copeland as to a
disposition of his case different
or contrary to what’s contained
in the plea agreement?
MR. STRIPLING: Yes, sir, I can acknowledge
that.
THE COURT:

All right. Ms. O’Malley, on
behalf of the United States?

MS. O’MALLEY:

Yes, Your Honor.

Id. at 36-37. Copeland advised the Court that he was
satisfied with his attorney’s representation and
confirmed that it was his desire to plead guilty to
Counts Twenty-Seven, Thirty-Six, and Thirty-Seven,
id. at 37-38, and the Court accepted his plea as
knowingly and voluntarily made, id. at 39.
Copeland’s sworn statements during the plea
colloquy affirmatively refute his allegations. Copeland
alleges that he pled guilty because his attorney told
him his maximum sentence was 7 years in prison, but
Copeland acknowledged at the hearing that that the
Court could impose a sentence of up to the maximum
term of 27 years in prison. Copeland alleges that he
pled guilty because his attorney told him his sentence
would be in the range of 60 months, but he
acknowledged at the hearing that his sentence could be
more severe than any sentence estimated by his
attorney, and that he was not relying on any promise
of a low sentence. Copeland alleges that he pled guilty
because his attorney failed to explain how his
Guidelines range would be calculated, but Copeland

App. 18
stated at the hearing that he and his attorney had
discussed the Sentencing Guidelines. Moreover, as
noted above, Copeland stated that he wished to plead
guilty even after acknowledging that the Court could
impose up to the cumulative maximum sentence of 27
years in prison, and that his sentence could be more
severe than any estimate given by his attorney. Thus,
counsel’s alleged failure to explain how his Guidelines
range would be calculated, even if true, could not have
affected his decision to plead guilty. Finally, Copeland
alleged that he pled guilty because his attorney told
him that counsel and the government had reached a
verbal agreement about the sentence, but Copeland
affirmed under oath that he was not relying on any
promises or understandings outside the terms of the
Plea Agreement.
“Solemn declarations in open court,” such as the
ones Copeland made when he pled guilty, “carry a
strong presumption of verity.” Blackledge v. Allison,
431 U.S. 63, 74 (1977). “[T]he representations of the
defendant, his lawyer, and the prosecutor at [a plea]
hearing, as well as any findings made by the judge
accepting the plea, constitute a formidable barrier in
any subsequent collateral proceedings.” Id. at 73-74.
Given that Copeland’s statements at the change-of-plea
colloquy were made under oath, “he bears a heavy
burden to show his statements were false.” United
States v. Rogers, 848 F.2d 166, 168 (11th Cir. 1988)
(per curiam). Based on the foregoing record, Copeland
has not carried that heavy burden. Copeland made
specific assurances during the change-of-plea hearing
that refute his allegations. As such, Copeland is not
entitled to relief on Ground One.

App. 19
B. Ground Two
Next, Copeland argues that counsel gave ineffective
assistance at the sentencing hearing by failing to object
to a violation of the Ex Post Facto Clause.6 At both the
initial sentencing hearing and the resentencing
hearing, the Court applied the 2011 Guidelines
manual, which was the manual in effect on the date of
the original sentencing. See Revised PSR at ¶ 36.
Copeland argues that the Court should have used the
2008 Guidelines manual – the manual in effect on
August 21, 2009, when Copeland claims his offense
conduct ended. Memorandum at 12. According to
Copeland, applying the later Guidelines manual
violated the Ex Post Facto Clause because, beginning
November 1, 2009, the definition of a “victim” under
U.S.S.G. § 2B1.1 was broadened to include “any
individual whose means of identification was used
unlawfully or without authority.” U.S.S.G. § 2B1.1,
Application Note 4(E) (2009); see also U.S.S.G., App’x
C, Amendment 726 (2009). Before November 1, 2009, a
“victim” was defined as “(A) any person who sustained
any part of the actual loss determined under subsection
(b)(1); or (B) any individual who sustained bodily injury
as a result of the offense.” U.S.S.G. § 2B1.1, Application
Note 1 (2008). Copeland argues that without the
expanded definition of a “victim,” the Court could not
have imposed the 6-level 250-victim enhancement
under U.S.S.G. § 2B1.1(b)(2)(C). According to Copeland,
the 2008 Guidelines would have recognized only one
victim: the IRS. Supplemental Reply at 7-8. Copeland
argues that counsel should have objected to the Ex Post
6

U.S. Const., Art. I, § 9, cl. 3 (“No Bill of Attainder or ex post facto
Law shall be passed.”).

App. 20
Facto violation, and had counsel done so, Copeland’s
sentence would have been lower because the 6-level
enhancement would have been eliminated. Id. at 7-9.7
Relief as to this ground is due to be denied.
Copeland’s argument depends on the incorrect
assumption that his offense conduct ended on August
21, 2009 – when a co-conspirator named Terry Venson
(“TV”) deposited a fraudulent tax refund into Venson’s
SunTrust bank account8 – and thus that counsel should
have argued that the 2008 Guidelines applied. But this
assumption is contrary to the charge in the Indictment
and the facts admitted by Copeland’s guilty plea, both
of which state that Copeland’s offenses continued until
December 28, 2009, or January 2010, both after the
2009 Guidelines manual went into effect (with its
expanded definition of a “victim”).
Ordinarily, “[t]he court shall use the Guidelines
Manual in effect on the date that the defendant is
sentenced.” U.S.S.G. § 1B1.11(a). However, in Peugh v.
United States, the Supreme Court held that “when a
defendant is sentenced under Guidelines promulgated
after he committed his criminal acts and the new
version provides a higher applicable Guidelines
sentencing range than the version in place at the time
of the offense,” the Ex Post Facto Clause is violated.
7

The Court accepts, for the sake of argument, that Copeland would
not have qualified for the 250-victim enhancement without the
expanded definition of a “victim.” The Court relied on the
broadened definition of a “victim” in § 2B1.1, Application Note 4(E)
to sustain the 250-victim enhancement. (Crim. Doc. 146;
Resentencing Tr., Vol. I at 30)

8

See Indictment at 6; Plea Agreement at 24-25.

App. 21
569 U.S. 530, 533 (2013). Thus, “[i]f the court
determines that use of the Guidelines Manual in effect
on the date that the defendant is sentenced would
violate the ex post facto clause of the United States
Constitution, the court shall use the Guidelines
Manual in effect on the date that the offense of
conviction was committed.” U.S.S.G. § 1B1.11(b)(1).
But frequently a defendant’s crimes span several
years, as they did here. In those cases, how does a court
determine which “Guidelines Manual [was] in effect on
the date that the offense of conviction was committed?”
Id. The question matters because the Guidelines
instruct that a district court must apply “[t]he
Guidelines Manual in effect on a particular date … in
its entirety. The court shall not apply, for example, one
guideline section from one edition of the Guidelines
Manual and another guideline section from a different
edition of the Guidelines Manual.” Id., § 1B1.11(b)(2);
United States v. Corrado, 53 F.3d 620, 623 (3d Cir.
1995) (the practice of applying only one version of the
guidelines when calculating a defendant’s sentence is
called the “one book rule.”).9 Not surprisingly, the
Guidelines provide the answer:
Under subsection (b)(1), the last date of the
offense of conviction is the controlling date for ex
post facto purposes. For example, if the offense
of conviction (i.e., the conduct charged in the
9

There is a limited exception to what is commonly referred to as
the “one book rule,” which is not applicable here: “[I]f a court
applies an earlier edition of the Guidelines Manual, the court shall
consider subsequent amendments, to the extent that such
amendments are clarifying rather than substantive changes.”
U.S.S.G. § 1B1.11(b)(2) (emphasis added).

App. 22
count of the indictment or information of which
the defendant was convicted) was determined by
the court to have been committed between
October 15, 1991 and October 28, 1991, the date
of October 28, 1991 is the controlling date for ex
post facto purposes. This is true even if the
defendant’s conduct relevant to the
determination of the guideline range under
§ 1B1.3 (Relevant Conduct) included an act that
occurred on November 2, 1991 (after a revised
Guidelines Manual took effect).
U.S.S.G. § 1B1.11, Application Note 2 (emphasis
added). Thus, for Ex Post Facto purposes, a court is
required to look to the Guidelines applicable to the last
date of the conduct for which the defendant was
charged and convicted, but not consider the date of
merely relevant conduct.
Additionally, “[i]f the defendant is convicted of two
offenses, the first committed before, and the second
after, a revised edition of the Guidelines Manual
became effective, the revised edition of the Guidelines
Manual is to be applied to both offenses.” U.S.S.G.
§ 1B1.11(b)(3). This is so “even if the revised edition
results in an increased penalty for the first offense.”
U.S.S.G. 1B1.11, Application Note 2, Subsection (b)(3).
The commentary explains why applying the revised
Guidelines edition to the earlier offense does not violate
the Ex Post Facto Clause:
Because the defendant completed the second
offense after the amendment to the guidelines
took effect, the ex post facto clause does not
prevent determining the sentence for that count

App. 23
based on the amended guidelines. For example,
if a defendant pleads guilty to a single count of
embezzlement that occurred after the most
recent edition of the Guidelines Manual became
effective, the guideline range applicable in
sentencing will encompass any relevant conduct
(e.g., related embezzlement offenses that may
have occurred prior to the effective date of the
guideline amendments) for the offense of
conviction. The same would be true for a
defendant convicted of two counts of
embezzlement, one committed before the
amendments were enacted, and the second after.
In this example, the ex post facto clause would
not bar application of the amended guideline to
the first conviction; a contrary conclusion would
mean that such defendant was subject to a lower
guideline range than if convicted only of the
second offense. Decisions from several appellate
courts addressing the analogous situation of the
constitutionality of counting pre-guidelines
criminal activity as relevant conduct for a
guidelines sentence support this approach. See
United States v. Ykema, 887 F.2d 697 (6th Cir.
1989) (upholding inclusion of pre- November 1,
1987, drug quantities as relevant conduct for the
count of conviction, noting that habitual offender
statutes routinely augment punishment for an
offense of conviction based on acts committed
before a law is passed); United States v. Allen,
886 F.2d 143 (8th Cir. 1989) (similar); see also
United States v. Cusack, 901 F.2d 29 (4th Cir.
1990) (similar).

App. 24
U.S.S.G. § 1B1.11, Application Note 2, Subsection
(b)(3).
Nearly every circuit court of appeals, including the
Eleventh Circuit, has held that applying the Guidelines
in the manner instructed does not offend the Ex Post
Facto Clause, even if it means applying a harsher
Guidelines manual to earlier offenses, so long as the
offenses are grouped together under § 3D1.2. United
States v. Bailey, 123 F.3d 1381, 1403-07 (11th Cir.
1997). See also United States v. Pagan-Ferrer, 736 F.3d
573, 595-99 (1st Cir. 2013); United States v. Kumar,
617 F.3d 612, 626–28 (2d Cir. 2010) (“We conclude that
the one-book rule set forth in § 1B1.11(b)(3) does not
violate the Ex Post Facto clause when applied to the
sentencing of offenses committed both before and after
the publication of a revised version of the Guidelines.”)
(emphasis omitted); United States v. Duane, 533 F.3d
441, 449 (6th Cir. 2008) (“[W]here, as here, offenses
grouped together for sentencing purposes were
committed before and after an amended version of the
Guidelines went into effect, the use of the amended
version of the Guidelines does not violate the Ex Post
Facto Clause.”); United States v. Sullivan, 255 F.3d
1256, 1262–63 (10th Cir. 2001) (same); United States
v. Lewis, 235 F.3d 215, 218 (4th Cir. 2000) (“[I]t was
not § 1B1.11(b)(3) that disadvantaged Lewis, but
rather her decision to commit further acts of tax
evasion after the effective date of the 1993
guidelines.”); United States v. Vivit, 214 F.3d 908,
918–19 (7th Cir. 2000) (“[W]e believe that the
enactment of the grouping rules provides fair notice
such that the application of §§ 1B1.11(b)(3) and 3D1.2
does not violate the Ex Post Facto Clause.”); United

App. 25
States v. Kimler, 167 F.3d 889, 893–95 (5th Cir. 1999)
(“[A] defendant has notice that the version of the
sentencing guidelines in effect at the time he
committed the last of a series of grouped offenses will
apply to the entire group.”); United States v. Cooper, 35
F.3d 1248, 1250–53 (8th Cir. 1994), vacated, 514 U.S.
1094, 115 S.Ct. 1820, 131 L.Ed.2d 742 (1995),
reinstated, 63 F.3d 761, 762 (8th Cir. 1995) (per
curiam) (same). But see United States v. Ortland, 109
F.3d 539, 546–47 (9th Cir. 1997) (finding Ex Post Facto
violation where district court applied revised
Guidelines to all five mail fraud counts, only one of
which involved conduct committed after the
amendment). The Eleventh Circuit has reasoned:
…[T]he one book rule, together with the
Guidelines grouping rules and relevant conduct,
provide that related offenses committed in a
series will be sentenced together under the
Sentencing Guidelines Manual in effect at the
end of the series. Thus, a defendant knows,
when he continues to commit related crimes,
that he risks sentencing for all of his offenses
under the latest, amended Sentencing
Guidelines Manual. Analogous to a continuous
criminal offense, like conspiracy, the one book
rule provides notice that otherwise discrete
criminal acts will be sentenced together under
the Guidelines in effect at the time of the last of
those acts.
Bailey, 123 F.3d at 1404–05 (footnotes omitted).
Here, no Ex Post Facto violation resulted from
applying the guidelines from the 2011 Guidelines

App. 26
manual because Copeland’s offenses continued past
November 1, 2009, when the Guidelines broadened the
definition of the term “victim” to include “any
individual whose means of identification was used
unlawfully or without authority.” U.S.S.G. § 2B1.1,
Application Note 4(E) (2009). Copeland wrongly
assumes that his offense conduct ended on August 21,
2009, such that the 2008 Guidelines manual should
have governed his conduct. But the Indictment and the
guilty plea refute this premise.
According to Count Twenty-Seven of the
Indictment, Copeland engaged in a scheme or artifice
to defraud that began June 29, 2007, and continued
through December 28, 2009. Indictment at 4. During
that time, Copeland allegedly: (1) “used the identity
information of other individuals,” without their
knowledge or permission, “to file and cause the filing of
… fraudulent federal income tax returns”; (2) used
interstate wires to file fraudulent tax returns;
(3) caused other individuals to open bank accounts into
which fraudulent tax refunds were deposited;
(4) obtained the fraudulent deposits from other coconspirators’ bank accounts; (5) “obtained funds which
had as their source false and fraudulent income tax
refunds generated by the scheme [ ] by cashing checks
through” one of Copeland’s businesses, Capital Auto
Sales; and (6) “used funds generated by the scheme to
purchase and cause the purchase of used automobiles,
which were then offered for sale at” one of his other
businesses, New Era Auto Sales. Id. at 2-3 (describing
the manner and means of the scheme to defraud); id. at
5 (incorporating the manner and means with respect to
Counts Twelve through Twenty-Seven). Thus,

App. 27
according to the Indictment, this scheme to defraud
continued through December 28, 2009.
According to the Plea Agreement and Copeland’s
sworn statements at the plea hearing, the crimes
continued into January 2010. With respect to the
personalization of the elements for Count TwentySeven, Copeland admitted that from May 19, 2006,
through January 2010, he “knowingly devise[d] or
participate[d] in a scheme to defraud the Internal
Revenue Service (IRS), or to obtain money from the IRS
by using false pretenses, representations, or promises.”
Plea Agreement at 20; Plea Tr. at 33. With respect to
the personalization of the elements for Count ThirtySix, Copeland admitted that from May 19, 2006,
through January 2010, he knowingly used or possessed
other individuals’ means of identification, without
lawful authority to do so, in relation to his scheme to
defraud the IRS. Plea Agreement at 21; Plea Tr. at 34.
According to the factual basis, “[b]etween in or about
May 19, 2006, and continuing through in or about
January 2010, at Jacksonville, Florida and elsewhere,
the defendant, Bryan Adrain Copeland, engaged in a
scheme to defraud the Internal Revenue Service
(IRS)….” Plea Agreement at 23; Plea Tr. at 28.
Additionally, the factual basis included in Copeland’s
Plea Agreement, which Copeland admitted was true in
its entirety, stated:
On February 3, 2010, agents from USSS [United
States Secret Service], USPIS [United States
Postal Inspection Service], and IRS/CI [IRS
Criminal Investigations] conducted surveillance
at the defendant’s residence and place of

App. 28
business. USSS agents observed the defendant
leave his business, and followed him. He drove
towards the Dames Point Bridge in Jacksonville
[Florida] and began driving erratically, which
caused one of the agents following him to
activate the agent’s vehicle’s lights and sirens.
At that point, the agents observed the defendant
throw two backpacks out of his vehicle. The
backpacks landed on the bridge and were
recovered by an agent.
After the defendant drove over the bridge, the
USSS agent pursuing the defendant caused him
to stop. The defendant consented to a search of
his vehicle, which revealed numerous items of
evidentiary value, including IRS documents and
debit and ATM cards in the names of other
coconspirators.
A search of the two backpacks abandoned by the
defendant also revealed items of evidentiary
value, including laptop computers, and thumb
drives, bank paperwork and additional IRS
forms. A forensic examination of the laptop
computers established that the computers
contained IRS forms and had been used to create
income tax returns for other people.
Plea Agreement at 25; Plea Tr. at 30-31, 33. Thus, the
factual basis illustrates that the offenses of conviction
continued well after November 1, 2009, when the 2009
Guidelines manual went into effect.
In United States v. Elbeblawy, the Eleventh Circuit
found that a district court did not clearly err, for Ex

App. 29
Post Facto purposes, when it found that the
defendant’s conduct continued after 2011, when the
Guidelines were amended to provide a 4-level increase
for certain federal healthcare offenses. 899 F.3d 925,
939 (11th Cir. 2018). The Eleventh Circuit pointed to
the factual basis signed by the defendant, which
“expressly provided that his ‘primary role in the
scheme [to defraud] … was to establish and take
control of JEM … (from approximately 2006-2011) and
Healthy Choice … (from approximately 2009-2013).’”
Id. (emphasis omitted). The court found that “[t]his
evidence alone establishes that Elbeblawy’s criminal
conduct continued after 2011.” Id. Likewise, the signed
Plea Agreement and the factual basis, which Copeland
accepted as true at the change-of-plea hearing, state
that his offenses continued through January 2010.
“This evidence alone establishes that [Copeland’s]
criminal conduct continued after [November 1, 2009].”
Id.
Because Copeland admitted that the conduct
supporting Count Twenty-Seven (wire fraud) continued
until January 2010, this “is the controlling date for ex
post facto purposes.”10 U.S.S.G. § 1B1.11, Application
Note 2. Thus, pursuant to § 1B1.11(b)(3), the 2009
Guidelines manual applied to Counts Twenty-Seven
and Thirty-Seven, which the Probation Officer grouped

10

Copeland also admitted that his conduct regarding Count ThirtySix continued through January 2010. However, Count Thirty-Six,
with a mandatory consecutive two-year sentence, was grouped
separately and not affected by the 250-victim enhancement.
Revised PSR at ¶¶ 38-39.

App. 30
together under § 3D1.2(d). Revised PSR at ¶ 37.11
Consistent with Eleventh Circuit precedent, the Court
finds that applying the latest Guidelines manual to
grouped offenses such as these does not violate the Ex
Post Facto Clause. Bailey, 123 F.3d at 1403-07. “[T]he
one book rule,” together with the grouping rules,
“provide[ ] notice that otherwise discrete criminal acts
will be sentenced together under the Guidelines in
effect at the time of the last of those acts.” Id. at 1405.
“Thus, a defendant knows, when he continues to
commit related crimes, that he risks sentencing for all
of his offenses under the latest, amended Sentencing
Guidelines Manual.” Id. When Copeland continued his
offense conduct into 2010, he assumed the risk that all
of his related criminal conduct would be sentenced
under the 2009 Guidelines manual, including its
broadened definition of the term “victim.”
Since there was no difference between the 2011
Guidelines manual, which the Court utilized, and the
2009 Guidelines manual as it pertained to the
definition of a “victim,”12 no Ex Post Facto violation
resulted from using the 2011 manual. As such,
Copeland’s attorney was not ineffective for not
11

With regard to Count Thirty-Seven (making false claims against
the United States), Copeland only admitted that his conduct took
place on August 21, 2009. Plea Agreement at 21; Plea Tr. at 35.
However, Counts Twenty-Seven and Thirty-Seven were grouped
together under U.S.S.G. § 3D1.2(d) “because the offense level is
determined largely on the basis of the total amount of loss and the
offense guideline is written to cover such behavior.” Revised PSR
at ¶ 37. Copeland has not challenged the grouping of the offenses
under § 3D1.2.
12

Compare U.S.S.G. § 2B1.1, Application Note 4(E) (2011) with
U.S.S.G. § 2B1.1, Application Note 4(E) (2009).

App. 31
objecting to the 250-victim enhancement on Ex Post
Facto grounds. “A lawyer cannot be deficient for failing
to raise a meritless claim.” Freeman v. Att’y General,
536 F.3d 1225, 1233 (11th Cir. 2008) (citing Chandler
v. Moore, 240 F.3d 907, 917 (11th Cir. 2001)). Of
course, diligent attorneys should remain vigilant for Ex
Post Facto concerns at sentencing because of two
realities: Guidelines frequently undergo revisions from
one year to the next and defendants are often
sentenced years after their offense conduct ended.
However, based on the facts of this case, the
application of the 6-level 250-victim enhancement did
not violate the Ex Post Facto Clause.
C. Ground Three
In Ground Three, Copeland asserts that counsel
gave ineffective assistance at sentencing by not
objecting to an 18-level enhancement under U.S.S.G.
§ 2B1.1(b)(1)(J), based on a loss amount of more than
$2.5 million but not more than $7 million. Copeland
alleged “that the court’s determination of [the] loss
[amount] was vastly exaggerated” and that counsel
“should have objected to the $3.5 million estimate
because the estimate was unreliable.” Motion to Vacate
at 7. However, Copeland provided no additional facts
supporting this contention in his Motion to Vacate or
Memorandum. See Motion to Vacate at 7;
Memorandum at 13. More importantly, Copeland
abandons this ground in his Supplemental Reply.
There, he states:
Petitioner argued that the amount of loss in this
case should have been less than $5,058,2797.26
[sic] (PSR ¶ 41), and that counsel was ineffective

App. 32
for failing to object to that finding. Under
§ 2B1.1(b)(1)(J), a defendant will receive an 18level enhancement if the amount of loss was
more than $2.5 million, but not more than $7
million. Here, the actual loss to the IRS was
$3,547,373.67 (see, PSR ¶ 32), which falls under
§ 2B1.1(b)(1)(J). Thus, Petitioner has difficulty
demonstrating prejudice under Strickland
because a successful objection would not have
eliminated the 18-level enhancement.
Supplemental Reply at 11-12. See also Reply at 10 n.1.
In so stating, Copeland concedes that he cannot prevail
on Ground Three.13 Accordingly, the Court deems
Ground Three withdrawn.
D. Ground Four
Finally, Copeland contends that counsel gave
ineffective assistance at his resentencing because
counsel “failed to request a downward departure” based
on post-sentencing rehabilitation. Motion to Vacate at
8. Copeland asserts that “[h]ad counsel notified the
court of Petitioner’s post-offense rehabilitative efforts
and good conduct while he had been incarcerated
following the original 2012 sentencing, the court would
have been required to assess that good conduct under
18 U.S.C. § 3553(a), and Petitioner would have received
a lower sentence.” Id. (emphasis added). The United
States counters that under United States v. Mesa, 247
13

The Court agrees. Because Copeland has offered no reason why,
at a minimum, $3,547,373.67 would have been an inaccurate
calculation of the loss amount, he cannot prevail. See Revised PSR
at ¶ 28 (“The Internal Revenue Service paid $3,547,373.67 in
fraudulent claims.”).

App. 33
F.3d 1165 (11th Cir. 2001), and United States v.
Pickering, 178 F.3d 1168 (11th Cir. 1999), a departure
for post-sentencing rehabilitation can only be applied
along the criminal history axis, and since Copeland was
already in Criminal History Category I, he could not
have benefited from consideration of post-sentencing
rehabilitation. Supplemental Response at 8-9.
It is true that in Mesa and Pickering, the Eleventh
Circuit explained “that a prisoner’s efforts at
rehabilitation ‘reflect more strongly on the offender’s
rehabilitative potential and likelihood of recidivism.’”
Mesa, 247 F.3d at 1171 (quoting Pickering, 178 F.3d at
1175). As such, the court in Mesa “concluded … that
any ‘departure for post-offense rehabilitation must
occur along that (the criminal history) axis.’ So we
specifically rejected Offense Level adjustment [sic] for
post-offense rehabilitation.” Id. (internal citation
omitted) (quoting Pickering, 178 F.3d at 1175). Here,
because Copeland was already in Criminal History
Category I, Mesa and Pickering would have foreclosed
Copeland from receiving a Guidelines departure based
on post-sentencing rehabilitation. However, despite his
imprecise use of the phrase “downward departure,”
Copeland does not really seem to argue that counsel
should have moved for a Guidelines departure based on
post-sentencing rehabilitation. Rather, Copeland
appears to argue that counsel was ineffective because
he failed to seek a variance under the § 3553(a) factors
based on post-sentencing rehabilitation. See Motion to
Vacate at 8 (citing 18 U.S.C. § 3553(a)). This is a
different argument, because a Guidelines departure
and a variance are not the same thing. “The difference
between the two is that a downward departure

App. 34
implicates the calculation of the guidelines range while
a downward variance invokes the district court’s
discretion to impose a sentence below the calculated
guidelines range based on the factors set forth in 18
U.S.C. § 3553(a).” United States v. Clay, 562 F. App’x
919, 921 n.2 (11th Cir. 2014) (citing United States v.
Amedeo, 487 F.3d 823, 830 (11th Cir. 2007)).
In Pepper v. United States, the Supreme Court held
that under § 3553(a), the “district court at resentencing
may consider evidence of the defendant’s
postsentencing rehabilitation and ... such evidence
may, in appropriate cases, support a downward
variance from” the advisory guidelines range. 562 U.S.
476, 481 (2011) (emphasis added). But “[t]hat’s a
double ‘may’ holding that leaves what consideration, if
any, to give to [a defendant’s] post-sentencing
rehabilitation, if any, up to the district court.” United
States v. Doyle, 857 F.3d 1115, 1121 (11th Cir. 2017).
Thus, contrary to Copeland’s argument that “the court
would have been required to assess [his alleged] good
conduct under 18 U.S.C. § 3553(a),” Motion to Vacate
at 8 (emphasis added), the Court would have had broad
discretion in deciding whether to consider postsentencing rehabilitation at all, and if so, whether it
should have affected the sentence (if at all).
Here, Copeland has not shown that counsel’s
performance was deficient or prejudicial with respect
to seeking a variance for post-sentencing rehabilitation.
For one, the record refutes Copeland’s suggestion that
counsel failed to “notif[y] the court of Petitioner’s postoffense rehabilitative efforts and good conduct while he
had been incarcerated following the original 2012

App. 35
sentencing….” Motion to Vacate at 8. Before
resentencing, counsel submitted a package of materials
to the Court, including a “Comprehensive Mitigation
Report.” (Crim. Doc. 133-1; Mitigation Report). The
Mitigation Report advised the Court that:
While under sentence at the Federal Bureau of
Prisons, Mr. Copeland has made an appropriate
adjustment to his imprisonment, and has
otherwise been a model prisoner. According to
the presentence report, Mr. Copeland has no
history of institutional misconduct (PSR 12). Mr.
Copeland stated that he has endeavored to use
his time in the BOP as productively as possible.
He added that he has taken courses in parenting
skills, Spanish, and the science of ancient
shipbuilding.
Id. at 2. Moreover, Copeland told the Court in
allocution that since being incarcerated, he had been
trying to better himself by taking classes and learning
Spanish so that he could get a job upon his release.
Resentencing Tr. Vol. II at 44. When the Court
explained how it crafted the sentence, the Court told
Copeland that “so long as you continue to behave
within the Bureau of Prisons, which I have every
reason to believe that you will, that means that you
would have about 12 years left.” Id. at 53-54. Thus,
while counsel did not specifically argue for a variance
based on post-sentencing rehabilitation, the record
shows that the Court was made aware of Copeland’s
rehabilitative efforts while in custody.
Additionally, Copeland has not established a
reasonable probability that, had counsel specifically

App. 36
argued for a variance based on post-sentencing
rehabilitation, the Court would have varied below the
Guidelines range even more than it did. Copeland’s
overall sentence of 204 months in prison already
represented a downward variance of nearly five years,
despite the Court viewing Copeland’s crimes as very
serious offenses. See id. at 46-55. The Court observed
that “[i]t really cannot be emphasized how serious this
offense was.” Id. at 48. Copeland orchestrated a
sprawling and sophisticated scheme to defraud the
IRS, which involved numerous co-conspirators, the
creation of false documents, identity theft, and the
theft of $3.5 million over four years (in addition to
obstruction of justice). See id. at 48-51. The low end of
Copeland’s Guidelines range was effectively 259
months in prison (235 months plus a mandatory
consecutive 24 months). Id. at 51. Nevertheless, the
Court varied 55 months below the Guidelines range
when it sentenced Copeland to a total term of 204
months in prison. Given the severity of the offense,
Copeland has failed to show a reasonable likelihood
that the Court would have varied even further below
the Guidelines range based on post-sentencing
rehabilitation, especially considering that the Court
was already aware of Copeland’s efforts at
rehabilitation while in prison.
Upon a thorough review of the record, the Court is
of the view that Copeland’s counsel did an effective job
representing him at resentencing, as reflected by the
fact that he obtained a significant downward variance
and a substantial reduction in Copeland’s sentence
compared to the initial sentencing hearing. That
counsel chose to focus his arguments on issues other

App. 37
than post-sentencing rehabilitation is not a decision the
Court can deem unreasonable, especially given that
there is no guarantee post-sentencing rehabilitation
will support a lower sentence. See Pepper, 562 U.S. at
505 n.17 (“Of course, we do not mean to imply that a
district court must reduce a defendant’s sentence upon
any showing of postsentencing rehabilitation.”); Doyle,
857 F.3d at 1121 (Pepper’s holding “leaves what
consideration, if any, to give to [a defendant’s] postsentencing rehabilitation, if any, up to the district
court.”). Counsel focused on other issues, such as
challenging a duplicative Guidelines enhancement
based on the number of vulnerable victims, see
Resentencing Tr., Vol. I at 7-8, and urging the Court to
give Copeland credit for acceptance of responsibility, id.
at 33-38. These were strategic choices about what to
emphasize at the resentencing hearing, and the Court
declines to second-guess those choices. See
Blankenship v. Hall, 542 F.3d 1253, 1280 (11th Cir.
2008) (“Counsel made a reasonable strategic choice to
pursue a lingering doubt strategy, and we do not
second-guess that decision.”) (citing Strickland, 466
U.S. at 690-91); Chandler v. United States, 218 F.3d
1305, 1314 n.14 (11th Cir. 2000) (“And, a court must
not second-guess counsel’s strategy.”) (citing Waters v.
Thomas, 46 F.3d 1506, 1518-19 (11th Cir. 1995) (en
banc)). Because the Court finds that counsel’s
performance with respect to the issue of postsentencing rehabilitation was neither deficient nor
prejudicial, Ground Four is due to be denied.

App. 38
III.

Certificate of Appealability

The undersigned opines that a certificate of
appealability is not warranted. This Court should issue
a certificate of appealability only if the petitioner
makes “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To make
this substantial showing, Copeland “must demonstrate
that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or
wrong,” Tennard v. Dretke, 542 U.S. 274, 282 (2004)
(quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)),
or that “the issues presented were ‘adequate to deserve
encouragement to proceed further,’” Miller-El v.
Cockrell, 537 U.S. 322, 335–36 (2003) (quoting Barefoot
v. Estelle, 463 U.S. 880, 893 n.4 (1983)).
Where a district court has rejected a petitioner’s
claims on the merits, the petitioner must demonstrate
that reasonable jurists would find the district court’s
assessment of the claims debatable or wrong. See
Slack, 529 U.S. at 484. However, when the district
court has rejected a claim on procedural grounds, the
petitioner must show that “jurists of reason would find
it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of
reason would find it debatable whether the district
court was correct in its procedural ruling.” Id. Upon
consideration of the record as a whole, this Court will
deny a certificate of appealability.
As such, and in accordance with the Rules
Governing Section 2255 Cases in the United States
District Courts, it is hereby ORDERED:

App. 39
1. Petitioner Bryan Adrain Copeland’s Motion
Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence (Civ. Doc. 1) is DENIED.
2. The Clerk is directed to enter judgment in favor
of the United States and against Copeland, and
close the file.
3. If Copeland appeals the denial of the petition,
the Court denies a certificate of appealability.
Because this Court has determined that a
certificate of appealability is not warranted, the
Clerk shall terminate from the pending motions
report any motion to proceed on appeal as a
pauper that may be filed in this case. Such
termination shall serve as a denial of the
motion.
DONE AND ORDERED at Jacksonville, Florida this
3rd day of July, 2019.

s/______________________________
MARCIA MORALES HOWARD
United States District Judge
lc 19
Copies:
Counsel of record
Petitioner

App. 40

APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
Case No: 3:16-cv-699-J-34JBT
Criminal Case No. 3:11-cr-281-J-34JBT
[Filed July 5, 2019]
________________________________
BRYAN ADRAIN COPELAND,
)
)
Petitioner,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Respondent.
)
________________________________ )
JUDGMENT
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’s Order entered July 3, 2019, judgment is
hereby entered in favor of the United States and
against Bryan Adrain Copeland.
Any motions seeking an award of attorney’s fees
and/or costs must be filed within 14 days of the
entry of judgment.

App. 41
ELIZABETH M. WARREN, CLERK
P. Morawski
By: Deputy Clerk

Date: July 5, 2019
Copies furnished to:
Counsel of Record
Unrepresented Parties

App. 42

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
Crim. No. 3:11-cr-281-J-34JBT
3:16-cv-699-J-34JBT
[Filed June 7, 2016]
________________________________
UNITED STATES OF AMERICA, )
)
Respondent-Plaintiff,
)
)
v.
)
)
BRYAN ADRIAN COPELAND,
)
Inmate # 55708-018
)
)
Petitioner-Defendant.
)
________________________________ )
MEMORANDUM IN SUPPORT OF
MOTION UNDER 28 U.S.C. §2255
Statement of Facts and Case
On November 10, 2011, a grand jury sitting in the
United States District Court for the Middle District of
Florida returned a thirty-eight count indictment,
charging Petitioner in all counts. Petitioner was
charged with 27 separate counts of mail and wire

App. 43
fraud, in violation of 18 U.S.C. §§ 1341 and 1343
(Counts One through Twenty-Seven). Petitioner was
also charged with nine counts of identity theft, in
violation of 18 U.S.C. § 1028A (Counts Twenty-Eight
through Thirty-Six), and two counts of making false
claims, in violation of 18 U.S.C. § 287 (Counts ThirtySeven through Thirty-Eight).
Subsequently, Petitioner entered into a written plea
agreement with the Government. Doc. 42, Plea
Agreement. According to the agreement, Petitioner
would plead guilty to Counts Twenty-Seven, Thirty-Six,
and Thirty-Seven of the indictment. Id. The
Government agreed to dismiss the remaining counts.
Id. The agreement specified that the maximum penalty
Petitioner could receive was a total of 20 years
imprisonment. Doc. 42, Plea Agreement, PageID# 74.
The agreement specified that Petitioner should receive
an adjustment under U.S.S.G. § 3E1.1 for acceptance
of responsibility. However, no other stipulations
concerning the application of the Sentencing Guidelines
were included in the agreement. The agreement
contained a standard cooperation provision and a
promise that the government would consider filing a
downward departure under § 5K1.1 at sentencing or a
Rule 35(b) departure within one year of sentencing. Id
at PageId# 78.
On June 20, 2012, Petitioner appeared for
sentencing and was sentenced to a total of 264 months
imprisonment. The PSI included two pre-indictment
incidents that were used to enhance Petitioner’s
sentence. Specifically, (1) in February 2010, after the
investigation into Petitioner’s criminal activities

App. 44
commenced, Petitioner attempted to destroy evidence
while fleeing from law enforcement officers, and, (2) in
September 2011, Petitioner intimidated a potential
witness by striking the witness with his car.
Based on these incidents, the PSI included a§ 3C1.1
enhancement for obstruction of justice. Additionally,
the PSI did not include a § 3E1.1 adjustment because
of the two incidents and because Copeland “did not
truthfully admit all of his conduct and relevant
conduct” and did not “voluntarily assist authorities
with the recovery of the fruits of the offense.” The
Government filed a sentencing memorandum agreeing
that the§ 3E1.1 adjustment should not be applied.
Accordingly, based on a total offense level of 42 and a
criminal history category I, Petitioner’s guideline range
was 360 months to life imprisonment. However, the
combined statutory maximum was 300 months.
The court adopted the PSI findings, but varied
downward to a sentence of 240 months imprisonment
on Counts 27 and 37, and imposed a mandatory 24month consecutive sentence on Court 36, for a total of
264 months imprisonment.
Accordingly, he immediately appealed to the
Eleventh Circuit Court of Appeals. See, United States
v. Copeland, 12-13381. Petitioner argued that the
Government violated the plea agreement at sentencing
by failing to recommend a 3-level § 3E1.1 reduction.
The court agreed and vacated Petitioner’s sentence and
remanded the case for a new sentencing before a
different judge. Id.

App. 45
At the resentencing hearing, the court once again
applied the § 3C1.1 enhancement, but also applied the
§ 3E1.1 adjustment. The guideline range was
determined to be 235 to 293 months imprisonment.
However, the court varied to a sentence of 204 months,
including the 24 month mandatory consecutive penalty
for Court Thirty-Six.
Petitioner appealed once again, arguing that the
district court erred in applying the § 3C1.1
enhancement at resentencing. See, United States v.
Copeland, 14-12832. On March 19, 2015, the Eleventh
Circuit dismissed the appeal, finding that:
Because Copeland did not challenge the district
court’s initial decision to apply the enhancement
when the opportunity existed in his first appeal,
that decision is law of the case, and Copeland is
deemed to have waived his right to challenge the
enhancement on resentencing and in this
appeal. (Cites omitted). Nor does Copeland’s
current appeal satisfy any of the exceptions to
the law-of-the-case doctrine, because it does not
address new evidence or an intervening change
in the law, nor does it raise the issue of manifest
injustice resulting from our prior decision.
***
Alternatively, even if the district court was
permitted to address Copeland’s objection de
novo, the court did not err in applying the
§ 3C1.1 enhancement.
Petitioner is currently confined at FCI La Tuna
serving his sentence for the instant convictions. The

App. 46
release date projected by the Bureau of Prisons (BOP)
is September 5, 2026. See, www.bop.gov/inmateloc/
ARGUMENT
Ground One: Petitioner Received Ineffective
Assistance of Counsel in Violation
of the Sixth Amendment to the
United States Constitution When
Counsel Promised an Unrealistic
Sentence in Order to Induce a
Guilty Plea That Otherwise Would
Not Have Been Entered.
The Sixth Amendment to the United States
Constitution guarantees that criminal defendants are
entitled to the assistance of counsel in presenting their
defense. U.S. Const., amend. VI. The High Court has
stated, “[t]he right to counsel is a fundamental right of
criminal defendants; it assures the fairness, and thus
the legitimacy, of our adversary process.” Kimmelman
v. Morrison, 477 U.S. 365, 374 (1986). Further, the
Court has recognized that “the right to counsel is the
right to effective assistance of counsel.” McMann v.
Richardson, 397 U.S. 759, 771 (1970) (emphasis added).
To succeed on a claim of ineffective assistance of
counsel, a defendant must show that his “counsel’s
conduct so undermined the proper function of the
adversarial process that the trial cannot be relied on as
having produced a just result.” Strickland v.
Washington, 466 U.S. 668, 686, 104 S.Ct. 2055, 2063
(1984); Bustos v. White, 521 F.3d 321, 324 (4th Cir.
2008). The Strickland Court went on to hold that in
order for a defendant to prevail on an ineffective

App. 47
assistance of counsel claim, he must satisfy a twoprong test. Id.; see also Bustos, supra. A defendant
should demonstrate that the representation he received
“fell below an objective standard of reasonableness”
and “a reasonable probability that but for counsel’s
unprofessional errors, the results of the proceedings
would have been different.” Strickland, 466 U.S. at 688,
694.
A court reviewing a claim of ineffective assistance
must determine whether a reasonable probability
exists that, but for counsel’s unprofessional errors, the
results of the proceedings would have been different or
whether the result was fundamentally unfair or
unreliable. Id., citing Lockhart v. Fretwell, 113 S.Ct.
838 (1993). Ultimately, the Strickland test requires
courts to focus upon whether counsel’s performance
was sufficient to ensure the fundamental fairness of
the proceeding. Id. However, the prejudice that must be
shown need not be anything more than something as
small as one additional day in jail. See Glover v. United
States, 531 U.S. 198 (2001). “It is the client’s right to
expect that his lawyer will use every skill, expend
every energy, and tap every legitimate resource in the
exercise of independent professional judgment on
behalf of the client and in undertaking representation
of the client’s interests.” Frazer v. United States 18
F.3d 778, 785 (9th Cir.1994).
As the Supreme Court recognized in Strickland,
“counsel bears a duty to make a ‘reasonable’
investigation of the law and facts in his client’s case.”
Strickland, 466 U.S. at 691. Additionally, the ABA

App. 48
Standards Relating to the Administration of Criminal
Justice provide:
It is the duty of the lawyer to conduct a prompt
investigation of the circumstances of the case
and to explore all avenues leading to facts
relevant to the merits of the case and the
penalty in the event of conviction. The
investigation should always include efforts to
secure information in the possession of the
prosecution and law enforcement authorities.
The duty to investigate exists regardless of the
accused’s admissions or statements to the
lawyer of facts constituting guilt or the accused’s
stated desire to plead guilty.
Standard 4-4.1.
In the context of guilty pleas, the United States
Supreme Court announced that counsel must give
objectively reasonable advice before the presumption of
effectiveness will be applied. Hill v. Lockhart, 474 U.S.
52, 106 S.Ct. 366 (1985); see also Bustos, supra.
Further, the American Bar Association Standards
Relating to the Administration of Criminal Justice
provides that “it is unprofessional conduct for the
lawyer to understate or overstate ths risks, hazards, or
prospects of the case to exert undue influence on the
accused’s decision as to his or her plea.” Standard 45.1© (1979); see also United States v. Gordon, 156 F.3d
376, 379-81 (2d Cir. 1998) (per curiam) (recognizing
ineffective assistance claim where counsel’s gross misadvice regarding potential sentencing exposure caused
defendant to reject plea offer); see also Lafler v. Cooper,

App. 49
131 S. Ct. 856, 178 L. Ed. 2d 622 (2011); Missouri v.
Frye, 131 S. Ct. 856, 178 L. Ed. 2d 622 (2011).
In the instant case, defense counsel made
unreasonable promises in order to induce a guilty plea,
knowing that such promises could not be fulfilled. The
Petitioner was prejudiced by such conduct, in that he
entered a plea that he would not have otherwise
entered, with said plea being entered unknowingly,
involuntarily, and unintelligently in violation of the
Petitioner’s due process rights.
The Fifth Amendment to the United States
Constitution states that “[n]o person . . . shall be
deprived of life, liberty, or property, without due
process of law.” U.S. Const., Amend. V. In evaluating
due process claims, this court inquires whether the
practice “offends some principle of justice so rooted in
the traditions and conscience of our people as to be
ranked as fundamental.” Snyder v. Massachusetts, 291
U.S. 97, 105, 54 S.Ct. 330, 332, 78 L.Ed. 674 (1934). As
stated by Justice Frankfurter, due process
embodies a system of rights based on moral
principles so deeply imbedded in the traditions
and feelings of our people as to be deemed
fundamental to a civilized society as conceived
by our whole history. Due process is that which
comports with the deepest notions of what is fair
and right and just.
Solesbee v. Balkcom, 339 U.S. 9, 16, 70 S. Ct. 457, 461,
94 L. Ed. 604 (1950).
The Supreme Court addressed the importance of
effective representation during plea negotiations,

App. 50
stating, “plea bargains have become so central to the
administration of the criminal justice system that
defense counsel have responsibilities in the plea
bargain process, responsibilities that must be met to
render the adequate assistance of counsel that the
Sixth Amendment requires in the criminal process at
critical stages.” Missouri v. Frye, 132 S. Ct. 1789, 182
L. Ed. 2d 379, 389 (2012). Because the United States’
criminal justice system “is for the most part a system
of pleas, not a system of trials,” Lafler v. Cooper, 132
S. Ct. 1376, 182 L. Ed. 2d 398 (2012), “it is insufficient
simply to point to the guarantee of a fair trial as a
backstop that inoculates any errors in the pretrial
process.” Frye, 182 L. Ed. 2d at 389. Plea bargaining “is
not some adjunct to the criminal justice system; it is
the criminal justice system.” Scott & Stuntz, PLEA
BARGAINING AS CONTRACT, 101 Yale L. J. 1909, 1912
(1992). “In today’s criminal justice system, therefore,
the negotiation of the plea bargain, rather than the
unfolding of a trial, is almost always the critical point
for a defendant.” Frye, 182 L. Ed. 2d at 390.
The ABA Standards Relating to the Administration
of Criminal Justice provide that “it is unprofessional
conduct for the lawyer to understate or overstate the
risks, hazards, or prospects of the case to exert undue
influence on the accused’s decision as to his or her
plea.” Standard 4-5.1© (1979).
In Miller v. United States, 2014 U.S.App. LEXIS
6305 (6th Cir. 2014) (unpublished), the defendant had
argued in his § 2255 motion that his attorney was
ineffective during plea negotiations for understating
the penalty the defendant would receive if he were

App. 51
convicted at trial. The defendant in Miller asserted
that had he known he was subject to an enhanced
sentenced, he would have decided to accept the
government’s plea agreement. Id *21-22. The Sixth
Circuit vacated the district court’s denial of the § 2255
motion and remanding for an evidentiary hearing to
determine whether the defendant received ineffective
assistance of counsel during plea negotiations. Id; see
also, United States v. Reed, 719 F.3d 369 (5th Cir. 2013)
(remanding for an evidentiary hearing to explore
whether counsel was ineffective during plea
negotiations when counsel provided erroneous advice
as to the penalty defendant would receive, causing the
defendant to reject a favorable plea agreement).
Herein, counsel failed to give reasonable advice
regarding the entering of a plea. According to
Petitioner, counsel advised him that the maximum
sentence he could receive under the plea agreement
was 84 months imprisonment. However, he could
receive a sentence in the range of 60 months
imprisonment. Counsel advised him that such a
sentence was probable because it would be similar to
the sentences others charged with fraud had received.
This advice was rendered despite the fact the plea
agreement contained no stipulations concerning
relevant guideline range calculations. Counsel never
advised him that he could face a sentence of 264
months imprisonment. (SEE AFFIDAVIT)
Additionally, counsel failed to advise Petitioner
concerning how the amount of loss would be calculated
or that the calculation would affect his guideline range
of imprisonment. Instead, Petitioner was advised that

App. 52
a verbal agreement had been reached concerning this
sentence and that the Guidelines would not be used.
Instead, a “3rd party mitigator”, named Carlos
Dawson, would be used to determine the appropriate
sentence. (SEE AFFIDAVIT)
In reality, Petitioner had pleaded guilty to three
offenses carrying a potential penalty of up to 300
months imprisonment. The plea agreement failed to
contain any stipulations concerning the amount of loss
or the amount of victims, both of which are critical to
determination of Petitioner’s offense level and
guideline range of imprisonment. Additionally, despite
the knowledge Petitioner had engaged in improper
conduct during the investigation of the offense, the plea
agreement contained no stipulation concerning the
possibility of an obstruction of justice enhancement.
Counsel failed to advise Petitioner that he could be
subject to a § 3C1.1 enhancement and other
enhancements that were not addressed in the plea
agreement.
Under these circumstances, counsel should have
recognized that a sentence of 300 months was possible
under the terms of the agreement and that it was
impossible, in the absence of a government filed
§ 5K1.1 departure, that Petitioner could receive a
sentence in the range of 60 to 84 months. Yet, in the
face of these calculations, counsel promised a sentence
in that range. Had Petitioner been correctly advised by
counsel concerning his potential penalty, he would
never have entered the plea agreement. (SEE
AFFIDAVIT)

App. 53
Accordingly, Petitioner received ineffective
assistance when counsel understated the penalty he
would receive in order to induce him into pleading
guilty. Therefore, Petitioner’s conviction should be
vacated.
Ground Two: Petitioner Received Ineffective
Assistance of Counsel at
Sentencing When Counsel Failed
to Argue that the Use of the 2013
Sentencing Guideline Manuel
Resulted in an Increase in the
Amount of Victims Attributed to
Petitioner’s Conduct, a Higher
Sentence, in Violation of the Ex
Post Facto Clause.
Petitioner submits that the latest date for the
commission of his offense came on August 21, 2009.
Therefore, he argues that the Guidelines in effect at
the time of the commission of the offense, the 2008
Guidelines, should have been used to calculate his
guideline range of imprisonment. Instead, the 2009
Guidelines were used, which adopted a definition of
“victim” that allowed Petitioner’s guideline range to be
enhanced based on 250 or more victims. Had the 2008
Guidelines been applied, Petitioner would not have
received the six-level enhancement and his sentence
would have been much lower.

App. 54
Ground Three:

Petitioner Received Ineffective
Assistance of Counsel at
Sentencing When Counsel Failed
to Object to the $3.5 Million
Amount of Loss Calculation.

Ground Four:

Petitioner Received Ineffective
Assistance of Counsel Upon
Resentencing When Counsel
Failed to Request a Downward
Departure Based On Petitioner’s
Post-Sentencing Rehabilitative
Efforts, Resulting in a Sentence
that is Procedurally and
Substantively Unreasonable.

Based on the foregoing, Petitioner respectfully
requests that this Court vacate his conviction and
sentence.
Respectfully submitted,

6-2-2016

s/ Bryan Copeland
Bryan Copeland
55708-018
La Tuna FCI
P.O. Box 3000
Anthony, TX 88021

App. 55
AFFIDAVIT OF BRYAN COPELAND
Affiant Bryan Copeland hereby states the following:
1. I, Bryan Copeland, was the defendant before this
Court in a case numbered 3:11-cr-0281. I am
currently an inmate at FCI La Tuna in Anthony,
Texas, and I have first-hand knowledge of the facts
that follow.
2. Based on advice rendered by my attorney, I entered
a plea agreement with the government and received
a sentence of 204 months imprisonment. However,
prior to entering into the plea agreement, my
attorney told me that the maximum sentence I
could receive under the plea agreement was 84
months imprisonment. Further, counsel advised me
that I would likely receive a lower sentence in the
range of 60 months imprisonment because other
defendants convicted of fraud had received similar
sentences. This advice was rendered despite the fact
the plea agreement contained no stipulations
concerning relevant guideline range calculations.
Counsel never advised me that I could face a
sentence of 264 months imprisonment.
3. Additionally, my attorney never advised me that
the court would estimate the amount of loss in my
case and that such a calculation would affect my
guideline range of imprisonment. To the contrary,
my attorney advised me that he had reached a
verbal agreement with the government concerning
my sentence and that the Sentencing Guidelines
would not be used by the court in determining my
sentence. I was further advised that a “3rd party

App. 56
mitigator”, named Carlos Dawson, would be used to
determine the appropriate sentence.
4. Had my attorney correctly advised me that I was
facing a sentence of much more than 84 months, I
would never have entered the plea agreement.
5. Further Affiant sayeth naught.
Pursuant to 28 U.S.C. 1746, I, Bryan Copeland,
declare under penalty of perjury that the foregoing is
true and correct.
Executed on this 2 day of June , 2016.
(day)
(month)

s/ Bryan Copeland
Bryan Copeland
55708-018
La Tuna FCI
P.O. Box 3000
Anthony, TX 88021

